C3

829?

IN THE
SUPREME COURT OF THE UNITED STATES

r—»

r.\
; i

1 ' •'

‘ A r-:; !:| P
i

\

MICHAEL DOYLE RUGGLES

v 1

1 i

1 '■

i'MTI;

Li an

— PETITIONER

VS.

GOVERNOR DAVID IGE, et al. - RESPONDENT(Sj)
ON PETITION FOR A WRIT OF CERTIORARI TO

FILED
JUN (H 2021
griFPlHCFEM0FF0r0HUERCTL5RSK

UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

MICHAEL DOYLE RUGGLES
(Your Name)

P.O. Box 794
(Address)

Mountain View, Hawaii 96771
(City, State, Zip Code)

808-968-0633
(Phone Number)

007

\i

•i . r
vL/J u u u - Ul:::
;

QUESTIONS PRESENTED
Does the State of Hawaii have a constitutional responsibility to draft laws that do not
stand silent and create ambiguities? Hawaii’s medical cannabis law does not tell
patients how to legally acquire cannabis plants and seeds to grow the cannabis
medicine, therefore creating a legal problem for the created class.
Is it constitutional for the State of Hawaii to create a vague and irreconcilably
conflicted medical cannabis law and then allow a situation where for the last 21 years
the Hawaii AG, Police and Prosecutors profit off of the conflict and commit
racketeering crimes against sick people under the guise of federal prohibition of
cannabis?
How is it constitutional or equal protection of the law to draft a law that a separate
class of 8 wealthy dispensary licensees can pay fees to the state and then have control
of unlimited cannabis plants and medicine while after 21 years there is still no illegal
way for the medical cannabis patients to obtain a cannabis seed or plant?
Does a State have a responsibility to fix vague, ambiguous and conflicting laws or are
they allowed to intentionally harm the created class indefinably for profit?

1

008

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES

009

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

[xl For cases from federal courts:

to

The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

B&C

[X
2020 WL 5636898 & 2020 WL 6731704
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
to the petition and is
Appendix
; or,
[ ] reported at
[ 3 has been designated for publication but is not yet reported; or,
[ 3 is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

010

to

TABLE OF CONTENTS
8

QUESTIONS PRESENTED
OPINIONS BELOW

12

JURISDICTION

13

CONSTITUIONAL AND STATUTORY PROVISIONS INVOLVED

11

STATEMENT OF THE CASE

14

REASONS FOR GRANTING THE WRIT

14

CONCLUSION

23

INDEX TO APPENDICES
APPENDIX A - Order Dismissing 20-17410

27

APPENDIX B - Order Granting Defendants’ MTD w partial leave to Amend

28

APPENDIX C - Order Grating Defendants Motion to Dismiss

33

APPENDIX D - Statement That Appeal Should Go Forward

41

APPENDIX E - Police “Know the Facts” - Marijuana Is Not Medicine

55

APPENDIX F-Various written testimonies regarding Act 178 (SB642HD1)

57

APPENDIX G - Act 178 amending HRS 329-121 (eff 2015)

100

APPENDIX H - Act 228 establishing HRS 329-121

108

APPENDIX I - DEAfact sheet Marijuana-Cannabis

127

APPENDIX J - Legislative Testimony of John W. Elias (2019)

130

APPENDIX K- GAI Cannabis Cronyism (2020) pg 1-5

142

APPENDIX L - Forbes - More People Were Arrested For Cannabis Last Year

138

APPENDIX M - CATO - Cut Regulation to Reduce Marijuana Corruption

147

APPENDIX N - US House Report 116-604 Marijuana Opportunity...Expungemnt Act... 153

011

TABLE OF AUTHORITIES
CASES

PAGE NO.

State v Woodhall: 129 Hawaii 397 (2017)

22, 50-51
21,52

State v Quidav: 146 Haw 116 (2017)

23, 52-53

Timbs v Indiana: 139 S. Ct. 682 (2019)
US vAnaelilli: 660 F.2d 23 (1981)

19

US v Casamavor: 837 F.2d 1509 (1988)

19

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
16,47

18 USC §1951 Interference with commerce
18 USC § 1962 Prohibited activities

16, 44-45

21 USC § 812 Controlled Substance Act

156, 173

Act 228 Hawaii Medical Marijuana program (eff 2000) HRS § 329-121

passim

Act 178 Relating to Medical Marijuana (eff 2015)

passim

HRS §329-121 (eff 2015)

passim

OTHER
2018 Audit of the Hawaii Attorney General Asset Forfeiture

012

passim

JURISDICTION

[X| For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was March 9. 2021
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date: ____________
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date)
(date) on
to and including _
A
in Application No.
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
NOTE: A MANDATE was filed by the Fed Appellate Court on 3/31/21 which I
made an emergency motion to stay mandate while this Writ is filed [Dkts 16 &
17].

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
_____________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

013

STATEMENT OF THE CASE
This Writ stems from your Petitioner, Michael Doyle Ruggles, filing a Civil RICO § 1983
civil rights with constitutional violations suit against numerous government officials (and as
individuals) including the United States Attorney General and Executive Branch of the State
and County of Hawaii for years of ignoring true crime to target medical cannabis patients with
illegal warrant-less aerial and ground searches, armed terrorism, extortion, removal of
cannabis medicine from sick people without compelling reason, policing for profit and
terroristic treatment of created class of state medical cannabis patients, mainly focusing on
the sub-class of patients who grow their own cannabis or have a caregiver grow for them in
direct opposite to the intent of the Hawaii's medical cannabis law, Hawaii Revised Statutes
“HRS” §329-121.
REASONS FOR GRANTING THE WRIT
My issues are as novel to this Honorable Court (as they were to the lower courts) and I
would win hands-down at a jury trial of my peers, if I could only get to a trial, which I also
informed the lower courts, and they know that - that is why my complaints were dismissed
without allowing anyone to answer.
I am not asking for any monetary damages, I am asking for injunctions to stop the
state-created harm against sick, disabled, elderly medical cannabis patients (since 2000) by
trusted state and county government agencies who work for the state and county and should
obey the state medical cannabis law, instead of using fear and intimidation and actively
promoting propaganda against our state medical cannabis law [See Apx E, Police Know the
Facts, Marijuana Is Not Medicine - picked up at the Hilo Hawaii Police Department in 2015].
I am asking for equitable state laws for both rich and poor medical cannabis patients,
including those who grow at home or have or want a caregiver, and that the State be ordered
give the patients a legal way to acquire seeds and/or plants, for example, from other patients

014

or caregivers who may have them, as testifiers to Act 178 were asking for way back in 2013
fSee Aox F - various testimonies relating to Act 178 (SB 642 HD1).
I want a ruling that the Federal Government not be allowed to offer and the State of
Hawaii not be allowed to accept any federal funds, grants, matching reimbursements
administrative forfeitures etc. relating to cannabis, because it distracts the police and
prosecutors from answering 911 calls and going after true crime.
Besides ending the racketeering of cannabis which actively targets patients, other
compelling reasons to end Hawaii’s unconstitutional medical cannabis law is that are that in
2021 at least 36 States and the District of Columbia have legalized medical cannabis, and
many states have gone beyond that with decriminalization of small amounts (like Hawaii)
and/or outright legalization of cannabis. I would request this Honorable Court to respect the
overwhelming choice of the people/states in this matter.
Additionally, the scales of compelling evidence have definitely tipped hugely in favor of
cannabis not being a dangerous “drug” with no known medical use and a high potential for
“abuse” with no proof of safety when used under medical supervision. Cannabis just isn’t as
dangerous as the US Attorney General would have everyone believe, and the States
recognize that, that is why they risk federal ire for the last 20 years to enact medical cannabis
decriminalize and legalization bills!
This case is a plea to you, the Judicial Branch, to stop blindly deferring to the old
Supreme Court old ruling, Gonzales v. Raich1, whose authors are no longer on the Supreme
Court or are deceased. We need the checks and balances of a modern Judicial System to
stop the abuses of the Executive Branch in Hawaii. Laws are supposed to be ever-changing
and evolving, and so is Supreme Court every changing and evolving in their membership and

125 S.Ct. 2195 (2005).

015

consideration of facts are supposed to be in today’s terms in 2021, not just rote recital of 50year-old law.
Congress is obviously under the influence of lobbyists and the US AG is profiting of
keeping cannabis illegal, which is why we haven’t had any change in the status for the last 50
years since cannabis was “temporarily” placed in the CSA in 1971 while studies of its safety
where performed, which have been done more than several times, for example2 and 3 and
were obviously ignored.
This case is not about asking the SCOTUS to reschedule cannabis, plenty of sick and
desperate people have tried that (and are still trying) to no avail since the CSA was enacted. I
am trying to stop the actual and imminent harm and abuse to the created class of Hawaii
medical cannabis patients created by their own state government taking money from the
federal to prioritize federal prohibition of cannabis while ignoring the intent of state law to have
a medical cannabis program and also ignoring 911 calls for help, true crime and real
dangerous drugs.
The racketeering activities listed in my Complaints are in violation of 18 USC § 1951
and 1962 against a created class of sick and mostly elderly people are not conjectural or
hypothetical, all allegations are easily proved by public records. The State, through an over­
reaching Executive Branch, has intentionally created harm for the people it claims to want to
help and must be ordered to correct Hawaii’s medical cannabis law in a clear and plain
language that protects the patient, the true beneficiary of Hawaii’s medical cannabis program.
My Complaint and Amended Complaint have been dismissed several times without
your Petitioner getting one minute before any judge. None of the Defendant’s had to answer

2Report of the National Commission on Marijuana and Drug Abuse (1972) available at:
druglibrary.org/schaffer.library/studies/nc/ncmenu.htm
3DEA Judge Dennis Young’s FOF,COL and Decision In The Matter of Marijuana Rescheduling Petition (1988) available at:
dmglibrary.org/schaffer/library/studies/young/index.html

016

any of the allegations, despite explicit details of their long-term intentional racketeering
actions under color of law made against a created class of sick people who choose to grow
the medicine the state said they could. My allegations have been called frivolous, without
debunking any of them, because they are guilty of bad actions.
The Defendants get off on technicalities like “government agencies aren't liable for
racketeering in the Ninth Circuit” or ’’government agencies can’t form criminal intent”, or they
are “just doing their job” or after 15 years of homegrown, it’s okay for 8 rich people to profit off
sick people because the state said so, and we are slowly gonna take away the homegrown
option.
Both judges (District Court and Ninth Circuit) did not take my complaints as true
whatsoever as Rule 12(b)(6) caselaw provides for and instead proclaimed them frivolous fSee
Apx A-C1 even though I am not asking for money, just fair treatment for all medical cannabis
patients, not just those who can afford commercially dispensed medical cannabis.
Hawaii Police routinely focus on the federal cannabis prohibition through administrative
forfeiture (mainly centered around cannabis) without due process or reporting, the profits are
split among Attorney Generals, Police and Prosecutors, for example, the 2018 Audit of the
Hawaii Attorney General’s Asset Forfeiture Program cited in both Complaints. When offered
suggestions by the auditor to help comply with drafting rules regarding reporting
requirements, the Hawaii AG declared they just hadn’t had time to do it and I believe the
same answer has been given for many years now.
We don’t know how many calls to 911 are not answered, because the Defendant
Ferreira’s Hawaii County Police Department has never been audited one time in the history of
Hawaii Statehood, meaning since 1959. For other examples of unnecessary government
interference See. Apx J Legislative Testimony of John W. Elias (2019) and Apx K - GAI
Cannabis Cronyism (2020).

017

My Complaints have shown concrete, particularized, actual and imminent harm to
medical patients which is directly traceable to the “stand silent” approach of Hawaii to allow
cannabis as medicine but not give a legal way to get it. A favorable ruling will equalize
treatment of all Hawaii medical cannabis patients, including those who live in rural areas and
choose to grow their own medicine for a fraction of the price of dispensaries.
Again, See Apx F - Various Written Testimonies regarding Act 178 (SB 642 HD1)
Relating to Health. After overwhelming testimony to allow transfer of medical cannabis
between patients and caregivers, for some reason the final version has a line is drawn
through patient and caregiver, leaving a glaring ambiguity instead of clarifying who gets to
transfer cannabis rApx G. Act 178 (2013 eff 2015)].
You will notice there is no mention of cannabis dispensaries anywhere in Act 228, HRS
§ 329-121 et seq. [Apx HI Why is that? Because dispensaries don’t benefit the patients
unless they can afford to purchase at them, and at an average of 3-6 times the price of black
market, a large percentage of patients are priced out of the “legal” dispensary market and left
to their own devices and the whims of law enforcement since the state stands silent.
The US Attorney General recognizes in writing that cannabis has not caused one death
ever [See Apx I - 2021 DEA Fact Sheet Marijuana-Cannabis] in direct opposition to probably
every other drug listed in their Controlled Substance Act, not to mention alcohol or tobacco or
over-the-counter drugs like aspirin as mentioned in my original Complaint.
The US AG, who did not answer the Waiver of Service for either the Complaint or
Amended Complaint, pays law enforcement in all the States in America, including Hawaii, to
focus on cannabis crimes while there are worse deadly drugs and violent crime on every
street corner [See Apx L -More People Were Arrested For Cannabis Last Year Than For All
Violent Crimes Put Together, According to FBI Data (2020)/.

018

Your Honors, the truth of the matter is I would win in a court of law with a jury of
my peers with this case. The Defendants are afraid, which is why I was not given one
moment before the judge in either the Honolulu District Court or the Ninth Circuit in
this matter. You will notice how they never denied any of the bad behavior alleged in
either of the Complaints, they just are trying to say they have qualified immunity and
can get away with deplorable behavior because government’s can’t form criminal
intent.
I am not asking you to reschedule cannabis, I am asking you to stop allowing the State
of Hawaii to take any money from the Federal Government and/or vice versa, the Federal
Government from giving any funds for anything cannabis related because policing for profit is
unconstitutional and the State of Hawaii has much worse pressing state and county crimes
than cannabis.
The racketeering predicate crimes against the created class alleged in my complaints
are serious and easily provable, yet the lower courts refused to give me the benefit of the
doubt, not even allowing an Answer to be filed, not recognizing serious due process or
constitutional violations made by state and county actors with immunity, only saying the RICO
laws are not applicable to government entities, while I’m pretty sure the RICO laws were
originally drafted to stop government corruption rUS vAngelilli; 660 F.2D 23 at 33 (1981) and
US v Casamavor.%3,1 FF.2d 1509 (1988).
In 2021 we have 36 States and the District of Columbia who have medical cannabis
programs, many other states have decriminalized or outright legalized cannabis because
they realize cannabis is not a danger to society and it takes public time and resources away
from violent crime, but the Attorney General William Barr and his Hawaii Reefer Madness
buddies make to much money off of keeping cannabis scheduled with the illegal drugs
because it works really good for the administrative forfeiture scheme and police focus on
profits instead

019

of crime. How many years of the Drug War and the DEA has the most money and the best
and most deadliest equipment yet they can't seem to make a dent in the drug problem and
the drugs get worse and worse every year l~See Apx J GAI Cannabis Cronyism pg 1-5) and
Apx M - CATO - Cut Regulation to Reduce Marijuana Corruption (2020).
I truly believe Congress is trying to correct the US Attorney General’s cannabis
scheduling and long-term, racists and systemic abuse of people who use a plant for medicine,
for example see Apx N. the first 28 pages from US House Report 116-604 Marijuana
Opportunity Reinvestment and Expungement Act of 2019. Unfortunately, as with policing for
profit, and the US AG being in charge of cannabis scheduling, here is just too much special
lobbying interests to get anything done in Congress about cannabis, and this has been going
on for decades now.
I believe it is unconstitutional for a court of law to not allow a citizen even the benefit of
an answer to a complaint before brushing it off. It is not a frivolous issue to be a sick person
abused by “trusted government agencies” under color of law [See StAmand v Block: 34
Fed.Appx. 283 (2002)]. In my case, neither the Honolulu Federal Court or the Ninth Circuit
would not even consider the grievous nature of my Complaints’ easily verified racketeering
predicates carried out over a long period of time, instead outright claiming government
agencies don’t have bad intent can't be held liable for racketeering, and that I am concocting
this lawsuit just because I want to grow and sell cannabis.
It bothers me that poor people are automatically assumed to have frivolous issues and
have to jump through additional hoops paid cases do not. That is what the Ninth Circuit
automatically did by requiring a Statement Why The Case Should Go Forward [Apx D]. I
have browsed the 2002 thesis of Wendy L. Watson at Ohio State University who found that
"the Court is less likely to select an unpaid petition than a paid petition, there are differences
in the decision calculus between the two dockets and the IFP docket is treated differently that

020

paid cases4. I ask Your Honors to forget your Petitioner is poor, and look at the merits of the
Complaints and this Writ, look at the terrorizing of medical patients at the hands of Hawaii law
enforcement financed by the federal government surrounding a program was supposedly
enacted out of compassionate for individuals with health issues way back in the year 2000
(Adx HI.
The allegations listed in my Complaints clearly fit the definition of racketeering
predicates and are easily proved using public records. I am not doing this for myself, I am
doing this to stop the abuse of sick people under “color of bad law”. Not being terrorized or
prosecuted or losing my vehicle or home if I want to grow and use a plant medicine the State
said I can use should be an inalienable right. I should not have to live in fear because my
state can’t enact a fair law that protects the created class from persecution.
Your Honors, the cops don’t go around flying helicopters with 15-man militarized
ground crew back-up using protected health information to count how many prescription pills
are in your medicine cabinet, yet we have a burgeoning prescription drug crisis. Police and
prosecutors don’t investigate violent and property crimes with helicopters and ground crew there is no money for that but somehow there is plenty of money and need for a SWAT-style
militarized response to the cannabis plant??? he Hawaii Supreme Court found that helicopter
surveillance of people’s homes for cannabis was an abuse of police power, yet the laws were
not changed fSfafe v Quidav: 146 Haw 116 (2017].
There are no laws that allow removal of any prescription medicine from any people
traveling in Hawaii or elsewhere, yet we medical patients in Hawaii who pay an extraordinary
amount of money to be able to use cannabis as medicine, are not allowed to take our

4The US Supreme Court’s Selection of Petitions in Forma Pauperis; Dissertation
W.W.Watson, MPP, JD (2004)(quote at page 150 online) available at
edt.ohiolink.edu/apexprod/rws_edt/send?accession=osu1

021

cannabis medicine on the airplane, you are forced by the State of Hawaii to leave it at home
and find a dispensary and purchase their cannabis if you travel to another island for more
than a quick return trip. In 2013 the Hawaii Supreme Court found Hawaii's medical cannabis
law irreconcilably conflicted \State v Woodhall: 129 Haw 397, 301 P.3d 607 (2013). Nothing
has changed, every year that passes increases the extortion of the created class in favor of
expanding the for-profit dispensary monopoly as detailed in my Complaints.
Why should State and County police be able to accept federal money to conduct
warrant-less helicopter searches of private properties for plants, and why should government
agencies be able to violate HIPPA and give lists of patients and caregivers who grow at home
to the police?
Again, cannabis has never killed anyone, and the federal government admits it yet they
continue to ignore violent crime and deadly drugs in the pursuit of cannabis crimes.
The US Attorney General William Barr blatantly abused his power to focus valuable resources
investigating cannabis businesses instead of real crimes and deadly designer and
prescription drugs scourging the country rSeeApx J Testimony of John Elias].
Police forces all over the country are abusing their powers, many times against people
of minority as seen in the Black Lives Matter movement fueled by the Drug War, but for sure
fact that 36 States accept the safety and medical value of cannabis can no longer be ignored
by this Honorable Court. The federal government should not be allowed to divert state and
county law enforcement from their appointed duties, protecting and serving the residents of
the State of Hawaii first and foremost. It is unconstitutional for Hawaii to ignore its own laws
and prioritize federal agendas and take money to abuse mostly poor and elderly sick people
and remove their property through administrative forfeitures without a court ruling. This Court,
led by the late Ruth Bader Ginsberg, realized that administrative forfeitures are a violation of

022

the Eighth Amendment’s Excessive Fines Clause [See Timbs v Indiana: 139 S.Ct. 682, 203
L.Ed. 2D 11 (2019).
CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted

Michael Doyle Ruggles
Date: June 2, 2021
Mountain View, Hawaii

023

